INSPECTOR GENERAL’S SEMIANNUAL REPORT TO CONGRESS

         Appalachian Regional Commission
           April 1, 2008–September 30, 2008
October 2008


MEMORANDUM FOR                  THE FEDERAL CO-CHAIR

SUBJECT:                        Semiannual Report to Congress

In accordance with the requirements of the Inspector General Act Amendments of 1988, Public Law
100-504, I am pleased to submit the Office of Inspector General Semiannual Report to Congress.

This Semiannual Report to Congress summarizes the activities of our office for the 6-month period
ending September 30, 2008. During this semiannual period we issued eight reports to the Appalachian
Regional Commission. During this period, the Inspector General continued to serve as representative of
the Executive Council on Integrity and Efficiency.

The Inspector General Act of 1978, as amended by the Inspector General Act Amendments of 1988,
provides that this report be forward to appropriate Congressional committees within 30 days and that
you provide whatever additional comments you consider appropriate.

I appreciate the Commission’s and your cooperation with the Office of Inspector General in the conduct
of our operations. I look forward to working with you and the ARC staff on the implementation of the
Inspector General Reform Act of 2008.




Clifford H. Jennings
Inspector General

Enclosure
                                       TABLE OF CONTENTS


                                                                                                                 Page

        Executive Summary                             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

        Purpose and Requirements of the OIG Semiannual Report                                   . . . . . . . . . . . iii

  I.    Introduction                                  .................................1

 II.    Background                                    .................................1

        Appalachian Regional Commission               .................................1

        Office of Inspector General                   .................................5

 III.   OIG Activity                                  .................................6

        Audits & Reviews                              .................................6

        Investigations                                .................................7

        Other                                         .................................8

  IV. OIG Hotline                                     .................................8

 V.     Legislative & Regulatory Review               .................................9


Appendices      A.       Schedule of Audit Reports Issued,
                         April 1, 2008 through September 30, 2008

                B.       Schedule of Audit Reports with Questioned or Unsupported Costs

                C.       Schedule of Audit Reports with Recommendations that Funds be put to
                         Better Use

                D.       Definition of Terms Used
                                     EXECUTIVE SUMMARY



During the fiscal year fourteen audit reports were issued, eight of which were issued during this
reporting period. The reports included audits of ARC’s financial statements and grant management
system, and six reports related to ARC’s grant program.

The audit of ARC’s 2007 financial statement resulted in no audit opinion being rendered, a four-fold
increase in audit costs, and a completion time of nearly eight months. Problems implementing the new
Parent-Child reporting requirements, mandated under OMB A-136, resulted in changing the financial
statement presentation to a federal format, and attempting to accurately portray ARC expenditure
activity and balance information for itself and other federal agencies that oversee ARC funded grants.
Agencies’ grant data and financial information was not provided timely and was not audited to the detail
level needed by ARC auditors to comply with established materiality levels. Furthermore, ARC
management could not attest to the adequacy of controls at other agencies for the specified materiality
thresholds. Other issues concerned meeting proper federal accounting requirements and recording of
data in sufficient detail to allow for reconciliation.

A report on the conditions of ARC’s grant management system was issued and noted several concerns
resulting in ten recommendations. System weaknesses described included:              system security,
uncompleted system documentation and system functionality, poor system user interfaces, and data
inaccuracies. To derive a full picture of ARC grant control and guidance activity, an inspection is
currently being conducted which will include an evaluation of the interaction between ARC, State, and
the local grantee personnel.

During the reporting period, the IG served on the Executive Council on Integrity and Efficiency.




                                                  ii
                            PURPOSE AND REQUIREMENTS OF THE
                  OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT


The Inspector General Act of 1978 requires the IG to keep the Federal Co-Chair and Congress fully and
currently informed about problems and deficiencies in the Commission's operations and the necessity for
corrective action. In addition, the Act specifies that semiannual reports will be provided to the Federal
Co-Chair by April 30 and October 31 and to Congress 30 days later.

The Federal Co-Chair may transmit comments to Congress along with the report but may not change
any part of the report. The specific requirements prescribed in the Act, as amended (Public Law 100-
504), are listed below.
                                            Reporting Requirements


Section 4(a)(2)     Review of legislation and regulations                                        Page 9

Section 5(a)(1)     Problems, abuses, and deficiencies                                           Page 6-7

Section 5(a)(2)     Recommendations with respect to problems, abuses, and deficiencies           Page 6-7

Section 5(a)(3)     Prior significant recommendations not yet implemented                        *

Section 5(a)(4)     Matters referred to prosecutive authorities                                  *

Section 5(a)(5)     Summary of instances where information was refused                           *
and    6(b)(2)

Section 5(a)(6)     Listing of audit reports showing number of reports and dollar value of       App A
                    questioned costs

Section 5(a)(7)     Summary of each particularly significant report                              **

Section 5(a)(8)     Statistical table showing number of reports and dollar value of questioned   App B
                    costs

Section 5(a)(9)     Statistical table showing number of reports and dollar value of              App C
                    recommendations that funds be put to better use

Section 5(a)(10)    Summary of each audit issued before this reporting period for which no       *
                    management decision was made by end of the reporting period

Section 5(a)(11)    Significant revised management decisions                                     *

Section 5(a)(12)    Significant management decisions with which the Inspector General            *
                    disagrees

*       None.
**      See references to Sections 5(a)(1) and 5(a)(2) for discussion of significant reports.




                                                         iii
I.       INTRODUCTION

The Inspector General Act Amendments of 1988 (P.L. 100-504) provides for the establishment of an
Office of Inspector General (OIG) at 30 designated Federal entities, including the ARC. The ARC OIG
became operational on October 1, 1989, with the appointment of an IG and provision of budgetary
authority for contracted audit and/or investigation activities.


II.      BACKGROUND

         A.     APPALACHIAN REGIONAL COMMISSION

The Appalachian Regional Development Act of 1965 (P.L. 89-4) established the Appalachian Regional
Commission. The Act authorizes a Federal/State partnership designed to promote long-term economic
development on a coordinated regional basis in the 13 Appalachian States. The Commission represents
a unique experiment in partnership among the Federal, State, and local levels of Government and
between the public and private sectors. It is composed of the Governors of the 13 Appalachian States
and a Federal representative who is appointed by the President. The Federal representative serves as the
Federal Co-Chair with the Governors electing one of their numbers to serve as the States' Co-Chair.

     -   Through joint planning and development of regional priorities, ARC funds are used to assist and
         encourage other public and private resources to address Appalachia's unique needs. Program
         direction and policy are established by the Commission (ARC Code) with the vote of a majority
         of the State members and the affirmative vote of the Federal Co-Chair. Emphasis has been
         placed on highways, infrastructure development, business enterprise, and human resources
         programs.

     -   Administratively, the Office of the Federal Co-Chair, with a staff of 11, and the Commission,
         with a staff of 45, is responsible for ARC operations. The States maintain an Office of States'
         Representative (2 persons) that has primarily liaison responsibilities. All personnel are located in
         Washington, DC. The Commission staff's administrative expenses, including salaries, are funded
         jointly by Federal and State funds; the States' Representative staff is funded entirely by the
         States; and the Federal Office staff is funded entirely from Federal funds.

     -   The Commission's appropriation for FY 2008 is $ 73.032 million. ARC was reauthorized in
         October 2008. In addition, Section 1101 of the Safe, Accountable, Flexible, and Efficient
         Transportation Equity Act: A Legacy for Users (SAFETEA-LU) provides annual authorizations
         of $470 million for construction of the Appalachian Development Highway System (ADHS),
         under Section 201 of the 1965 Appalachian Regional Development Act, for a total of $2.35
         billion over the five-year period, FY 2005 through FY 2009, from the Highway Trust Fund.
         Although these funds are derived from the Highway Trust Fund they remain under ARC's
         programmatic jurisdiction.




                                                      1
    Program funds are distributed to state and local entities in accordance with an allocation formula
    intended to provide fair and reasonable distribution of available resources. ARC staff has
    responsibilities for program development, policy analysis and review, grant development,
    technical assistance to States, and management and oversight.

-   In order to avail itself of federal agency expertise and administrative capability in certain areas,
    ARC often relies on other departments and agencies for program administration, especially with
    respect to highways and infrastructure projects. For example, the Appalachian Regional
    Development Act authorizes the Secretary of Transportation to administer the Commission's
    highway programs with the Commission retaining responsibility for priorities, highway
    locations, and fund allocations.


                        ARC ORGANIZATION CHART




                                                 2
3
4
              B.      OFFICE OF INSPECTOR GENERAL

The ARC OIG is an independent audit and investigative unit. An independent Inspector General who
reports directly to the Federal Co-Chair heads the OIG.

              Role and Authority

The Inspector General Act of 1978 (P.L. 95-452), as amended in 1988, states that the IG is responsible
for (1) audits and investigations; (2) review of legislation; and (3) recommendation of policies for the
purpose of promoting economy and efficiency in the administration of, or preventing and detecting fraud
and abuse in, the program and operations of the establishment. In this regard, the IG is responsible for
keeping the Federal Co-Chair and Congress fully informed about the problems and deficiencies in ARC
programs and operations and the need for corrective action. The IG has authority to inquire into all
ARC programs and activities that are federally funded. The inquiries may be in the form of audits,
surveys, investigations, personnel security checks, or other appropriate methods. The two primary
purposes of these inquiries are (1) to assist all levels of ARC management by identifying and reporting
problem areas, weaknesses, or deficiencies in procedures, policies, program implementation, and
employee conduct and (2) to recommend appropriate corrective actions.

              Relationship to Other Principal ARC Offices

The States’ and Federal Co-Chairs, acting together as the Commission, establish policies for ARC's
programs and its administration. These policies are codified in the ARC Code and implemented by the
Commission staff, which is responsible for monitoring project performance and providing technical
assistance as needed. The Federal Co-Chair, as the Federal fiscal officer, is responsible for the proper
use and protection of Federal funds, for ensuring compliance with applicable Federal laws and
regulations, and for taking appropriate action on conditions needing improvement, including those
reported by the OIG. The operations of the OIG neither replace established lines of operating authority
nor eliminate the need for the Commission offices to take reasonable measures to protect and enhance
the integrity and effectiveness of their operations. All Commission offices are responsible for
monitoring and evaluating the programs entrusted to them and reporting information or incidences
needing further audit and/or investigation to the IG.

              Funding and Staffing

The OIG funding level for FY 2008 is $486,000. Staffing consists of the Inspector General, an Assistant
Inspector General for Audit, and a confidential assistant. Grant review activities continue to emphasize
use of contracted services (e.g., independent public accounting firms or other OIG offices) supplemented
by programmatic and performance reviews directed by OIG staff. Investigative assistance is provided
by other OIG offices on an as-needed basis through memoranda of understanding. This approach is
deemed the most appropriate to date in view of the nature of ARC operations and limited resources.




                                                   5
III.   OIG ACTIVITY

       A.      AUDITS & REVIEWS

During the reporting year, 14 reports were issued dealing with programs, grants and grantees. Seven of
the reports were issued during this semi-annual reporting period. Currently, we are conducting an
inspection of grants issued and closed to evaluate the effectiveness of management’s guidance. We have
also engaged a contract auditor to evaluate internal controls over selected areas of ARC operations. The
audit will look at ARC operating practices relative to its formalized policies, best practices and federal
requirements. A second engagement will look at performance metrics used in grant evaluations to
determine their effectiveness at measuring grant results consistent with ARC’s stated goals, per the
Government Performance and Results Act.

All issued reports can be found on the OIG website http://www.arc.gov/index.do?nodeId=2060 .

Audit of ARC's Grant Management System
We completed an audit of ARC’s grant management system during April 2008. The audit examined the
quality of data generated, its usage, and the processes and controls in place for its generation. The
system is a vital component for ARC’s grant management activities, and is meant to provide a tool for
both project managers and for management oversight. What we found was a system that had not been
fully completed and for which other priorities had taken precedence.

The system had data conversion errors, data entry errors, and internal data processing errors.
Additionally, inadequate resources had been allocated to ensure timely completion of the project and to
provide for system documentation. System access and security features were not controlled
appropriately and there was only a single person knowledgeable of the system internals, putting ARC
grant operations and other computer activities at unnecessary risk. Ten recommendations resulted from
the audit.


J-1 Visa Waiver (Physicians) Program
During the reporting period, six reports were issued dealing with compliance requirements of the J-1
Visa Waiver Program. The program includes requirements that J-1 physicians provide primary care
services in an Appalachian Health Profession Shortage Area for 40 hours per week, regardless of the
physician's specialty. Audit findings include insufficient time provided by the doctor and/or practice in
the location approved; lack of required notices stating that Medicare, Medicaid and indigent patient care
will be provided; and other issues. In all cases, the issues were resolved.


2007 Financial Statement Audit
The Appalachian Regional Commission's financial statements are audited by an outside independent
auditor. The OIG monitors the activities of the auditor to help ensure compliance with applicable
statutes, OMB guidelines, and auditing standards. Performance and Accountability Report submissions
to OMB, to include the financial statement audit, were required by November 15th for 2007. However,
because of a change in OMB reporting requirements and ARC's unique relationship with other agencies,
obtaining an audit opinion became unachievable and the report was issued nearly8 months past the
OMB required date.



                                                    6
Effective for fiscal years beginning in 2007, the parent agency (ARC in this situation) is required to
report on the use and status of funds transferred to the child agencies. This created two problems for
ARC which were not resolved (despite managements concerted efforts), getting activity and balance
reports from the child agency, and obtaining an understanding and then confidence in the internal
controls of the child agency, especially when the amount of funds transferred to the child is insignificant
to the child (and below levels of audit materiality) but is significant to the parent.

Peer Review
Offices of Inspectors General (OIGs) are required to perform (and undergo) reviews of other OIG
offices every three years to ensure policies and/or procedural systems are in place that provide
reasonable assurance of compliance with auditing standards and policies. ARC completed a peer review
of the Federal Election Commission OIG and issued a report on its system of quality controls on March
28, 2008.

Telecommunications Audits
Audits were completed for six grant projects undertaken for the improvement of telecommunication
infrastructure in Alabama, Tennessee and Kentucky. The purpose of the audits were to determine that
funds were expended in accordance with the grant requirements, including reporting, accounting and
expenditure regulations, and that the objectives of the grant were being met. Audit findings included:
delays in recognizing and recording receipts, lack of advertisements for bidding projects, non-
compliance with reporting requirements and/or reporting deadlines, improper allocation and reporting of
project costs, and recordkeeping unsupportive of project costs. One audit initiated for West Virginia is
outstanding, pending grantee responses, and should be issued in the next period.


       B.      INVESTIGATIONS

The Inspector General Act of 1978, as amended, provides that the IG may receive and investigate
complaints or information concerning the possible existence of an activity constituting a violation of
law, rules, or regulations; mismanagement; gross waste of funds; or abuse of authority. The OIG does
not employ criminal investigators. When the need has arisen, the matter would be referred to the Federal
Bureau of Investigation or assistance would be contracted with another Federal OIG. Also, the results of
investigations may be referred to the appropriate Federal, State, or local prospective authorities for
action.

As a result of the computer security review performed by the DHS OIG, an investigation was opened
and certain personnel actions taken. The investigation is still awaiting the resolution of a referral to
another law enforcement agency. ARC itself has taken all necessary actions resulting from the audit and
subsequent investigation. During the current period, another instance of misuse of government
computer equipment was discovered and reported to management. Appropriate administrative action
was taken.

Previously, the OIG referred a case involving ARC funding and potential contracting violations and
kickbacks to the Tennessee Valley Authority’s OIG for investigation. The investigation is still ongoing.




                                                     7
C.     OTHER

OIG Policy Manual
During this period and for the next several months, ARC OIG will be involved in re-writing its policy
manual. The manual is being updated to reflect changes made to generally accepted governmental
auditing standards and other issues affecting our operating environment. Of special consideration are
recent changes related to internal controls, fraud considerations, ethical issues, and computerization of
audit processes.

Electronic Audit Work papers
ARC-OIG is aware of the benefits of electronic work papers for improving audit efficiency. In
particular, we believe that an improved indexing, and numbering system, together with an improved
supervisory review structure could be beneficial. We have recently reviewed some electronic work
papers systems and are continuing to gather information in anticipation of the purchase of the most
effective system for our use.


Going Green
ARC management has implemented green measures within the organization's internal operations. For
example, a new document scanning system has been linked to ARC’s e-mail system. Management, in a
written response to our draft report on ARC's grant management system stated, “We have had
preliminary discussion with our state partners about the need to move to a paperless application process,
and will pursue this more vigorously within this fiscal year.”

Reduction in paper utilization can reduce cost, improve the timeliness of management decisions through
better document storage and retrieval, and helps to reduce demands on our earth's ecological systems.

Our office, in alignment with ARC's management's initiative, is committed to “going green” and we will
attempt in future periods to issue our communications, and perform and transmit more work
electronically, e.g., reports, including semiannual reports, audit reports from contracted auditors, and
audit workpapers will be issued or maintained electronically, to the extent possible.

IV.    OIG HOTLINE

A region wide toll-free hotline was previously established to enable direct and confidential contact with
the ARC OIG in line with governmental and longstanding OIG initiatives as identified in the IG Act of
1978; to afford opportunities for identification of areas subject to fraud, waste, or abuse. However,
contacts with the ARC OIG relative to public complaints or concerns continue to be primarily received
through ARC staff, on regular OIG phone lines, or from other OIG offices.

Also, numerous hotline calls were received with respect to matters for which other agencies have
jurisdiction. This resulted primarily from the ARC OIG hotline apparently being the first such OIG
listing in some telephone directories, resulting in ARC OIG being contacted by citizens who did not
know the appropriate agency for handling their concerns. The ARC OIG facilitated the complaint
process by identifying the applicable agency based on complainant information and providing the
correct OIG hotline number.




                                                     8
V.     LEGISLATIVE AND REGULATORY REVIEW

Primary efforts in this area continued to be related to potential legislative initiatives with respect to OIG
operations. The ARC OIG continues to support legislation that would provide improved protections for
IGs, including appointee and career IGs, by consideration of alternatives such as removal for cause
criteria and term limits as well as the prohibition of acceptance of bonuses. The majority of legislative
review is performed by the PCIE/ECIE legislation committee which forwards the consensus remarks to
the appropriate bodies. Comments were provided on various pieces of proposed legislation, including
the Inspector General Reform Act of 2008, which was passed and signed into law October 14, 2008.




                                                     9
                                                                                                                                APPENDIX A



       SCHEDULE OF AUDIT REPORTS ISSUED APRIL 1, 2008 TO SEPTEMBER 30, 2008




      Report No.                              Entity and Title                             Program Dollars or      Questioned/         Funds to Better
                                                                                            Contract/Grant         Unsupported            Use***
                                                                                               Amount*               Costs**


                   Memorandum Report on Review of Pickens County Board of Education
        08-07      Carrollton, Alabama - Pickens County Telecommunication Broadband
                                                                                               $ 124,800
                   System Development

                   Memorandum Report on Review of Pickens County Board of
        08-08      Education Carrollton, Alabama - Pickens County Fiber Optic Network
                                                                                               $ 135,415
                   to Fayette County

                   Audit of the Appalachian Regional Commission’s Grant Management
        08-09
                   System

                   Memorandum Report of Review of Hancock County Sneedville,
        08-10      Tennessee - Hancock County Picture Archiving Communications
                   System                                                                      $ 337,194


                   Memorandum Report on Review of Center for Technology Enterprise,
        08-11      Inc. (CITE) Bowling Green, Kentucky - Telecommunications Regional
                   Initiative Project                                                          $ 776,994


                   Memorandum Report on Review of Center for Technology Enterprise,
        08-12      Inc. (CITE) Bowling Green, Kentucky - Appalachian Regional
                   Broadband Demonstration                                                     $ 180,000            $ 112,900


                   Memorandum Report on Review of Center for Technology Enterprise,
        08-13      Inc. (CITE) Bowling Green, Kentucky – Kentucky Broadband
                   Prescription for Innovation Initiative                                      $ 900,000            $ 634,165



                   Appalachian Regional Commission , Fiscal Year 2007, Audit of
        08-14
                   Financial Statements


      TOTALS                                                                                $ 2,454,403             $ 747,065              $ 0.00



*          Grant amounts reported are for ARC provided fund amounts and do not include matching funds.
**         A cost the Office of Inspector General has questioned because of an alleged violation of law, regulation, contract, or other agreements governing the
           expenditure of funds; such cost is not supported by adequate documentation; or the expenditure of funds for the intended purpose is unnecessary or
           unreasonable.
***        Funds the Office of Inspector General has identified in an audit recommendation that could be used more efficiently by reducing outlays, deobligating
           program or operational funds, avoiding unnecessary expenditures, or taking other efficiency measures, such as timely use of funds.




                                                                              10
                                                                                                                APPENDIX B



                                       SCHEDULE OF AUDIT REPORTS WITH
                                      QUESTIONED OR UNSUPPORTED COSTS
                                                ($ in thousands)


                                                    No. of               Questioned               Unsupported
                                                    Reports                Costs                     Costs

A.       For which no management decision               2                  $ 352*                        $ 0*
         was made by the commencement of
         the reporting period

B.       Which were issued during the                   2                  $ 747                      $ 747
         reporting period

         Subtotals (A + B)                              4                  $ 1,099                    $ 747

C.       For which a management decision
         was made during the reporting
         period

         (i)      dollar value of disallowed             3                 $ 114*                    $ 114*
                  costs



         (ii)     dollar value of costs not              2                 $ 721                     $ 721
                  disallowed

D.       For which no management decision               2                  $ 352                         $0
         has been made by the end of the
         reporting period

E.       Reports for which no management                2                  $ 352                         $0
         decision was made within 6 months
         of issuance

     * Adjustment made to prior period reporting. Decision made but final action not completed. Fund recovery still in process.




                                                                 11
                                                                                                APPENDIX C



                          SCHEDULE OF AUDIT REPORTS WITH
                   RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                   No. of      Dollar Value
                                                                   Reports   ($ in thousands)

A.   For which no management decision was made by the                 0           $0
     commencement of the reporting period

B.   Which were issued during the reporting period                    0           $0

     Subtotals (A + B)                                                0           $0

C.   For which a management decision was made during the
     reporting period

     (i)      dollar value of recommendations that were
              agreed to by management

              --based on proposed management action                   0           $0

              --based on proposed legislative action                  0           $0


     (ii)     dollar value of recommendations that were not           0           $0
              agreed to by management



D.   For which no management decision has been made by the            0           $0
     end of the reporting period

E.   Reports for which no final management decision was               0           $0
     made within 6 months of issuance




                                                              12
                                                                                          APPENDIX D



                                  DEFINITIONS OF TERMS USED


The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                       A cost which the Office of Inspector General (OIG) questioned
                                      because of an alleged violation of a provision of a law, regulation,
                                      contract, or other agreement or document governing the
                                      expenditure of funds; such cost is not supported by adequate
                                      documentation; or the expenditure of funds for the intended
                                      purpose is unnecessary or unreasonable.

Unsupported Cost                      A cost which the OIG questioned because the cost was not
                                      supported by adequate documentation at the time of the audit.

Disallowed Cost                       A questioned cost that management, in a management decision,
                                      has sustained or agreed should not be charged to the Commission.

Funds Be Put To Better Use            A recommendation made by the OIG that funds could be used
                                      more efficiently if management took actions to implement and
                                      complete the recommendation.

Management Decision                   Management's evaluation of the findings and recommendations
                                      included in the audit report and the issuance of a final decision by
                                      management concerning its response to such findings and
                                      recommendations, including actions concluded to be necessary.
                                      Interim decisions and actions are not considered final management
                                      decisions for the purpose of the tables in this report.

Final Action                          The completion of all management actions that are described in a
                                      management decision with respect to audit findings and
                                      recommendations. If management concluded that no actions were
                                      necessary, final action occurs when a management decision is
                                      issued.




                                                    13
       THE OFFICE OF INSPECTOR GENERAL

      APPALACHIAN REGIONAL COMMISSION

                serves American taxpayers

     by investigating reports of waste, fraud, or abuse

                 involving Federal funds.


                If you believe an activity is

     wasteful, fraudulent, or abusive of Federal funds,

                        please call

                  toll free 1-800-532-4611

  or (202) 884-7667 in the Washington metropolitan area


                        or write to:


                Office of Inspector General

            Appalachian Regional Commission

         1666 Connecticut Avenue, NW, Rm. 700

               Washington, DC 20009-1068


        Information can be provided anonymously.

Federal Government employees are protected from reprisal,

and anyone may have his or her identity held in confidence.
Cover Photo:
Powell Valley, Wise County, Virginia
Photo by Ken Murray




                            Appalachian Regional Commission

                                Office of Inspector General
                          1666 Connecticut Avenue, NW, Suite 700
                               Washington, DC 20009-1068
